IN THE

Supreme Court of the Anited States

No. 19-409

CITY OF CLEVELAND, KAREN LAMENDOLA, ADMINISTRATOR FOR
ESTATE OF FRANK STOIKER, AND J. REID YODER, ADMINISTRATOR FOR
ESTATES OF EUGENE TERPAY, JAMES T. FARMER, JOHN STAIMPEL,

Petitioners,
Vv.
RICKY JACKSON, KWAME AJAMU, FKA RONNIE BRIDGEMAN,
AND WILEY EDWARD BRIDGEMAN,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF SERVICE

I hereby certify that on this 20th day of December, 2019, I caused three copies of
the Reply for Petitioners to be served on the counsel of record as follows:

By overnight delivery and email to:

David E. Mills Michael Kanovitz

THE MILLS LAW OFFICE LLC Logvy & LoEvy LLP

1300 W. Ninth St., Suite 636 311 N. Aberdeen Street
Cleveland, OH 44113 Chicago, IL 60607

(216) 929-4747 (312) 243-5900
dm@MillsFederalAppeals.com mike@loevy.com

Counsel for Kwame Ajamu Counsel for Ricky Jackson
and Wiley Bridgeman

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 20, 2019.

 

600 New Harhpshire Ave., N.W.
Washington, D.C. 20037

(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
